<html>
<title> - RECEIVING THE VIEWS AND PRIORITIES OF INTERIOR SECRETARY KEN SALAZAR WITH REGARD TO MATTERS OF INDIAN AFFAIRS</title>
<body><pre>[Senate Hearing 111-20]
[From the U.S. Government Publishing Office]


                                                         S. Hrg. 111-20
 
                 RECEIVING THE VIEWS AND PRIORITIES OF 
                  INTERIOR SECRETARY KEN SALAZAR WITH 
                  REGARD TO MATTERS OF INDIAN AFFAIRS 

=======================================================================

                                HEARING

                               before the

                      COMMITTEE ON INDIAN AFFAIRS
                          UNITED STATES SENATE

                     ONE HUNDRED ELEVENTH CONGRESS

                             FIRST SESSION

                               __________

                           FEBRUARY 12, 2009

                               __________

         Printed for the use of the Committee on Indian Affairs

                               ----------
                         U.S. GOVERNMENT PRINTING OFFICE 

47-495 PDF                       WASHINGTON : 2009 

For sale by the Superintendent of Documents, U.S. Government Printing 
Office Internet: bookstore.gpo.gov Phone: toll free (866) 512-1800; 
DC area (202) 512-1800 Fax: (202) 512-2250 Mail: Stop SSOP, 
Washington, DC 20402-0001 


























                      COMMITTEE ON INDIAN AFFAIRS

                BYRON L. DORGAN, North Dakota, Chairman
                 JOHN BARRASSO, Wyoming, Vice Chairman
DANIEL K. INOUYE, Hawaii             JOHN McCAIN, Arizona
KENT CONRAD, North Dakota            LISA MURKOWSKI, Alaska
DANIEL K. AKAKA, Hawaii              TOM COBURN, M.D., Oklahoma
TIM JOHNSON, South Dakota            MIKE CRAPO, Idaho
MARIA CANTWELL, Washington           MIKE JOHANNS, Nebraska
JON TESTER, Montana
TOM UDALL, New Mexico
_____, _____
      Allison C. Binney, Majority Staff Director and Chief Counsel
     David A. Mullon Jr., Minority Staff Director and Chief Counsel
















                            C O N T E N T S

                              ----------                              
                                                                   Page
Hearing held on February 12, 2009................................     1
Statement of Senator Barrasso....................................     2
Statement of Senator Dorgan......................................     1
Statement of Senator Johanns.....................................    18
Statement of Senator Johnson.....................................     4
Statement of Senator Murkowski...................................     4
Statement of Senator Tester......................................     4
Statement of Senator Udall.......................................     5
    Prepared statement...........................................     5

                               Witnesses

Salazar, Hon. Ken, Secretary of the Interior, U.S. Department of 
  the Interior...................................................     6
    Prepared statement...........................................     9

                                Appendix

Devers, Hon. Chris, Chairman, Pauma Band of Mission Indians; 
  Chairman, Council of Energy Resource Tribes, prepared statement    23
Dorame, Hon. Charles, Chairman, Northern Pueblos Tributary Water 
  Rights Association, prepared statement.........................    26
Lewis, Tsosie, CEO, Navajo Agricultural Products Industry, 
  prepared statement.............................................    28
Response to written questions submitted to Hon. Ken Salazar by:
    Hon. Byron L. Dorgan.........................................    30
    Hon. Maria Cantwell..........................................    35
    Hon. Tom Coburn, M.D.........................................    34
    Hon. John McCain.............................................    37
    Hon. Jon Tester..............................................    38


 RECEIVING THE VIEWS AND PRIORITIES OF INTERIOR SECRETARY KEN SALAZAR 
                WITH REGARD TO MATTERS OF INDIAN AFFAIRS

                              ----------                              


                      THURSDAY, FEBRUARY 12, 2009


                                       U.S. Senate,
                               Committee on Indian Affairs,
                                                    Washington, DC.
    The Committee met, pursuant to notice, at 9:30 a.m. in room 
628, Dirksen Senate Office Building, Hon. Byron L. Dorgan, 
Chairman of the Committee, presiding.

          OPENING STATEMENT OF HON. BYRON L. DORGAN, 
                 U.S. SENATOR FROM NORTH DAKOTA

    The Chairman. We are going to call the hearing to order. 
This is a hearing of the Senate Indian Affairs Committee. We 
have other colleagues who will join us, but in the interest of 
the Interior secretary's time, we want to begin on time.
    I am honored to welcome the Honorable Ken Salazar, who is 
the Secretary of the Department of the Interior. I understand 
from Mr. Secretary that this is his first formal appearance 
before the U.S. Senate since his confirmation on January 20th. 
I want to say, and I know I speak for my colleague, Senator 
Barrasso, that I was honored to vote affirmatively on the 
confirmation of Senator Salazar. I think he is going to be a 
great Secretary of the Interior.
    In that job, he has the solemn responsibility of carrying 
out our Nation's treaty and trust obligations to federally-
recognized Indian tribes. While the trust obligation is 
Government-wide, the Interior Department is the principal 
agency that is charged with meeting the Government's trust 
responsibilities to American Indians. The government-to-
government relationship that exists between the United States 
and Indian tribes stems from some of the oldest documents that 
helped form this Union. Debates of the Continental Congress 
acknowledge the sovereign status of tribes. The debates 
contemplated trade and commerce agreements with tribal 
governments, and those discussions carried over into the 
formation of the Constitution for this Country.
    The sovereign status of tribes is prominently acknowledged 
in the Constitutions' commerce clause. That clause recognizes 
that Congress ``has the power to regulate commerce with foreign 
nations, among several states and with Indian tribes.''
    In our part of the Country, most tribes refer to the 1868 
Treaty of Fort Laramie as the governing document for their 
relationship with the United States. Fort Laramie was located 
in the Wyoming Territory, the State of our distinguished Vice 
Chairman. That treaty established reservations not only in 
Wyoming, but in North Dakota, South Dakota, Montana. And in 
that treaty, the United States made specific promises, explicit 
promises, to provide for public safety, education, health care 
and the general welfare of the reservation communities.
    It is safe to say, I believe, that we have not met those 
responsibilities. Some of the highest unemployment in our 
Nation exists on reservations, including the reservations of 
the Northern Great Plains States. We have, I believe, a crisis 
in Indian health care, with 40 percent of the needs unmet. In 
any part of this Country, they call that health care rationing. 
And it should be front page headline news, because it is 
scandalous.
    We have very significant challenges in Indian education and 
significant challenges in Indian housing issues. We need to do 
better as a country to meet our obligations. We have made 
promises, we have signed the line in treaty agreements, and we 
have trust responsibilities.
    I have used the word shameful, that in three of the last 
four years, I believe, we have not even had an Assistant 
Secretary of Indian Affairs. That position has been vacant. 
That is not a good way to discharge our responsibilities.
    That burden doesn't fall on the shoulders of Secretary 
Salazar. He has only been in this position for a couple of 
weeks. We call him before this Committee and appreciate very 
much his willingness to come before the Committee today to talk 
about the challenges and the obligations and talk about his 
stewardship as Secretary of the Interior and the opportunities 
he has to address some of these issues. We will be interested 
in talking to him about, I am sure, about education, health 
care, law enforcement, which I have not mentioned, and a good 
number of other issues.
    I will especially be interested in talking to him about the 
Assistant Secretary position, because I think it is important 
we have good leadership and continuity. I thank Mr. Skibine for 
filling in as Acting while we have been waiting for this change 
and for the selection of a new Assistant Secretary as well.
    Having said all that, Mr. Secretary, thank you so much for 
being here today. We appreciate the opportunity to hear your 
thoughts and to ask you some questions.
    Let me call on the Vice Chairman, Senator Barrasso, for 
comments.

               STATEMENT OF HON. JOHN BARRASSO, 
                   U.S. SENATOR FROM WYOMING

    Senator Barrasso. Thank you very much, Mr. Chairman.
    Good morning, Mr. Secretary. I am delighted to have you 
here. I look forward to hearing from you on your views and 
priorities regarding Indian Affairs at the Department of 
Interior.
    First of all, let me say how pleased I am to see that a 
fellow westerner, a former member of the Senate, is going to be 
heading up the Department of Interior. I want to congratulate 
you on this new position and note that not only has the 
Secretary been a colleague during my time in the senate, but 
really a true friend and a friend of the people of Wyoming and 
to the west. I am very pleased that you are here.
    It would be very difficult to find a better, more qualified 
person to take over the important work that is being carried 
out by the Department of Interior at this time. So I look 
forward to working with Secretary Salazar during this Congress, 
not only to address the many challenges that Indian Country is 
facing, and there are many, some old, some new, but also to 
assist Indian Country in opening its doors to a thoughtful plan 
and sustainable economic development. I may be new at this job 
as Vice Chairman of the Committee on Indian Affairs, but 
regardless, I am a firm believer in the notion that a healthy, 
vibrant, educated community isn't possible without 
opportunities, opportunities for individuals to earn a good 
living, and without high levels of employment.
    Mr. Chairman, as you and the Secretary are both well aware, 
the western United States is home to vast energy reserves, many 
of which are situated on tribal lands. We have talked about 
that before in this Committee. Development of our domestic 
energy resources is critical to our Country's energy security. 
It also happens to create good-paying jobs which in turn create 
robust local economies.
    Indian lands have tremendous potential for energy 
development. Not all tribes have these mega-casinos. And this 
is especially true of the tribes in the inter-mountain west and 
the Great Plains. Some tribes in these areas have been blessed 
with mineral and energy resources which, if developed with care 
and with planning, could play a major role in turning around 
the local economies in reservation communities. As is certainly 
the case for the Wind River Reservation in my home State of 
Wyoming, and for other reservations as well.
    For example, the Office of Indian Energy and Economic 
Development at the Department of Interior states that while 
Indian lands comprise only 5 percent of the total lands of the 
United States, they contain nearly 20 percent of the United 
States' energy reserves, with 15 million acres of undeveloped 
energy resources. These tribes need a Secretary who will help 
them realize the potential of their energy, mineral and other 
natural resources.
    Another critical area that has been neglected for far too 
long is law and order on Indian lands. The Chairman and I had a 
chance to visit about that last week. The current law 
enforcement statistics in Indian Country are unacceptable. On 
the Wind River Reservation in Wyoming, there are usually no 
more than two full-time police officers on 24 hour duty for an 
area that is nearly the size of Connecticut.
    Mr. Chairman, I am sure you would agree that non-Indian 
communities would not tolerate such a low level of protection. 
There is no reason that Indian communities should expect 
anything less than other communities in the way of law and 
order and public safety.
    So I applaud the Chairman for your efforts in the 110th 
Congress to improve law enforcement and public safety in Indian 
Country, and look forward to working with you and with 
Secretary Salazar toward that end in the 111th Congress. So I 
want to thank you, Mr. Secretary, for your willingness to be 
here today, for your willingness to serve and I am looking 
forward to hearing your views and recommendations on these and 
other issues.
    Thank you, Mr. Chairman.
    The Chairman. Senator Barrasso, thank you.
    Mr. Secretary, I know you have served on many committees 
here in the Senate. Perhaps in some committees they have 
allowed long, ponderous and torturous opening statements by 
every member of the Committee so that we could have witnesses 
come and listen. And you have perhaps served on committees 
where there are no opening statements other than the Chairman 
and Ranking Member.
    So let me ask my colleagues if they would have a one minute 
statement, so that we can get to the Secretary. Let me call on 
my colleague, Senator Johnson.

                STATEMENT OF HON. TIM JOHNSON, 
                 U.S. SENATOR FROM SOUTH DAKOTA

    Senator Johnson. Thank you, Chairman Dorgan.
    Secretary Salazar, welcome back to the Senate. You are a 
good friend, and I appreciate your coming here today.
    Mr. Secretary, as we move forward with the new 
Administration, I would like to extend an invitation to you to 
visit South Dakota and see first-hand the many issues that face 
our reservations and Indian communities. As you know, five of 
the seven poorest counties in the U.S. are reservation counties 
in South Dakota. I look forward to working with you and again, 
want to thank you for your testimony today.
    Thank you.
    The Chairman. Thank you.
    Senator Murkowski.

               STATEMENT OF HON. LISA MURKOWSKI, 
                    U.S. SENATOR FROM ALASKA

    Senator Murkowski. Thank you, Mr. Chairman. I don't need to 
hear myself talk, I am here to hear the Secretary speak this 
morning. I have made the invitation to you to join us in 
Alaska, so you can come and meet some of over 200 federally-
recognized tribes in Alaska. I know that we will have an 
opportunity to educate you more on some of the particular 
challenges that we face up north, and I look forward to that 
opportunity.
    But more importantly, more timely this morning, to hear 
your views and comments before the Committee. Thank you.
    The Chairman. Senator Tester.

                 STATEMENT OF HON. JON TESTER, 
                   U.S. SENATOR FROM MONTANA

    Senator Tester. Thank you, Mr. Chairman.
    Secretary Salazar, it is good to have you here. I will tell 
you that it is a little odd to call you Secretary Salazar, so 
it is going to take me a second. If I slip a ``Senator'' in now 
and then, you will have to forgive me.
    The challenges, well, let's put it this way. Where there 
are challenges, there is opportunity. There is a lot of 
opportunity in Indian Country right now, because the challenges 
are great. The list is long, the Chairman and Ranking Member 
went over them. All I will say is that I have been somewhat 
critical of the bureaucracy that you are going to be 
overseeing. And I know that you will be able to get good people 
in good positions and hold them accountable for the jobs they 
do. We have responsibilities here that we need to take 
seriously, and I know you will. It is great to have you here, 
Secretary Salazar.
    The Chairman. Senator Udall.

                 STATEMENT OF HON. TOM UDALL, 
                  U.S. SENATOR FROM NEW MEXICO

    Senator Udall. Thank you, Mr. Chairman.
    Secretary Salazar, great to have you here. You are a good 
friend. We served as Attorneys General and I know that you have 
taken an interest in all your public life and native issues. So 
I look forward to working with you on that.
    Yesterday, the National Congress of American Indians 
president gave a speech on four areas of concern to native 
communities. I think he hit the nail on the head. He is a New 
Mexican, he is the head of our All-Indian Pueblo Council, a 
gentleman by the name of Joe Garcia. And he said first, we need 
economic development in Indian Country, and for the inclusion 
of Indian Country in the new Administration's economic recovery 
efforts.
    Second, the need for reauthorization and improvement of the 
Indian Health Care Improvement Act. Third, high crime rates and 
a dilapidated system of prisons and jails need to be fixed. And 
fourth, a struggling education system with consistently low 
scores and crumbling schools. So you are a part of this new 
Administration and you are part of the new hope for Native 
Americans and all of us look forward to working with you 
closely to make sure that their dreams are fulfilled.
    Thank you very much, Mr. Chairman. I hope to put the rest 
of my statement into the record, because I wanted to keep it to 
one minute, just like you asked.
    The Chairman. Without objection.
    [The prepared statement of Senator Udall follows:]

   Prepared Statement of Hon. Tom Udall, U.S. Senator from New Mexico
    Secretary Salazar, I would like to begin by congratulating you on 
your confirmation to serve in President Obama's cabinet. I was pleased 
to support your nomination and look forward to working with you on so 
many of the issues of great importance to the states out west. Issues 
that you know well.
    The economic difficulties that all Americans are now being 
confronted with at this time of economic downturn, are merely a glimpse 
into the stark reality that has been the modern history of the Native 
American Tribes.
    My state of New Mexico is home to almost 200,000 members of 22 
different tribes and pueblos, all of which are grappling with issues of 
safety, healthcare, education, environmental degradation, economic 
deprivation, and inadequate infrastructure.
    These needs of New Mexico tribes are replicated across the nation. 
In his State of Tribal Nations address this week, NCAI President Joe 
Garcia highlighted four areas of concern for Native American 
communities across the country. These included:

  <bullet> First, the need for economic development, and for the 
        inclusion of Indian Country in the new administration's 
        economic recovery efforts.

  <bullet> Second, the need for reauthorization and improvement of the 
        Indian Healthcare Improvement act.

  <bullet> Third, high crime rates and a dilapidated system of prisons 
        and jails in Indian Country.

  <bullet> And fourth, a struggling education system with consistently 
        low test scores and crumbling schools.

    Secretary Salazar, you are part of the new administration and part 
of a new hope for Native Americans. There are many issues I look 
forward to working with you and the President on for Indian Country. 
Particular to my state are a number of tribal water settlements that 
are making their way through Congress. These settlements have been in 
ongoing negotiations for a long time and are finally nearing the finish 
line. Once we achieve that, which I am confident we will, it is 
imperative that funding be provided to implement these settlements.
    Another issue of particular relevance to New Mexico is the awful 
and tragic legacy of uranium development in the Navajo and Hopi 
Nations. Over the last year, the Bureau of Indian Affairs and Indian 
Health Service have worked with me and my colleagues in the House to 
create a five-year plan that addresses this legacy. This public health 
and environmental disaster left a trail of contamination and sickness 
that must be addressed. I look forward to coordinating with you and the 
other agencies of oversight to move the five-year plan forward.
    But as you well know, there are many issues that affect almost all 
tribes. As a U.S. Senator, you worked hard to address the issue of 
rampant methamphetamine use in Native American Communities. I applaud 
your efforts on this front, but as you no doubt are aware, we need to 
do more.
    So too do we need to do more to address sexual assault. One in 
three Native American women will experience sexual assault in her life 
time. This is an atrocity. In the next year it is essential that 
Congress coordinate efforts with you at the Department of Interior to 
make paths for prevention and ensure proper resources are available to 
police forces, crisis centers, and hospitals.
    Secretary Salazar, there are 526 federally-recognized tribes in 
this nation. These tribes are comprised of vibrant individuals and 
vibrant communities. You have the great opportunity to work with these 
communities. I look forward to working with you to ensure that the 
federal government is fully embraces its trust responsibility and 
confronts immediate crisis' as well as years of depredation in Indian 
Country.
    Thank you.

    The Chairman. Mr. Secretary, thank you for being with us. 
And we would be happy to hear your testimony and then begin 
some questions. You may proceed.

STATEMENT OF HON. KEN SALAZAR, SECRETARY OF THE INTERIOR, U.S. 
                   DEPARTMENT OF THE INTERIOR

    Secretary Salazar. Thank you very much, Chairman Dorgan, 
for inviting me here. And to Ranking Member Barrasso, thank you 
for both of your kind comments, as well as to all of my, I 
think you will all always be my colleagues. They say once a 
Senator, always a Senator. So Senator Murkowski, Senator 
Johnson, Senator Tester, Senator Udall, you are all my friends 
and my colleagues. I very much look forward to working on the 
many challenges that we do have.
    I think Senator Tester perhaps said it well, when he said 
there is lots of opportunity and places where there are lots of 
issues and lots of problems. Indeed, when we talked about the 
issues that we face with Indian Country and our Native American 
agenda, there are lots of issues there and lots of work to be 
done.
    I was asked by Chairman Dorgan to come before this 
Committee some time ago, and we were not able to do it before 
the Senate confirmation process, which I think took place on 
January 20th. So this is my first appearance before a committee 
in my formal capacity as Secretary of Interior. And I think it 
is fitting and appropriate that I am before this Committee 
which is a committee that provides such a strong voice for the 
First Americans of the United States of America. So I 
appreciate the invitation and I look forward to the discussion 
this morning, and more importantly, I look forward to the days, 
weeks and years ahead where we will confront the challenges 
that we face across this Country with Native American 
communities, and we will do that together.
    Let me say at the outset that I think one of the things 
that the Committee and Native American communities and leaders 
around this Country should very much understand is that the 
Nation's First Americans are going to have a place at the table 
under President Obama's Administration. He was very clear about 
that as he went around the Country in his campaign. He has been 
very clear about that with me, and we will make sure that 
issues of Native Americans are a high priority within the Obama 
Administration. It is a high commitment by the President.
    Indeed, this last week, the First Lady, Michelle Obama, 
visited the Department of Interior. One of the things she spoke 
about is that there would be a position in the White House that 
would also help us in terms of putting the spotlight on the 
needs and issues of Native American communities. So we will 
work on it to make sure that it happens.
    Let me make five or six points at the outset and then 
hopefully just engage in a conversation with you. I do have a 
more formal statement for the record.
    The Chairman. Without objection, that will be included in 
the record.
    Secretary Salazar. Let me say first, I think that it is 
important for me as Secretary of Interior to make sure that the 
positions that we have in the Department of Interior reflect 
the face of America. I am committed to having a face at the 
Department of Interior from top to bottom that is reflective of 
the face of America. In that context, we are very close, I have 
selected a person to be the Assistant Secretary for Indian 
Affairs. The vetting is underway. It is a name which is a famed 
name across Indian Country, who will help us in dealing with 
many of the challenges and issues that we confront.
    But I will not stop with the President's appointment and 
Senate's hopeful confirmation of the Assistant Secretary for 
Indian Affairs. It seems to me appropriate and proper that we 
move forward and make sure the Native Americans are also 
included in other positions. And I do have offers, and we are 
currently going through the vetting process to Native Americans 
for the position of Solicitor General for the Department of 
Interior. It will be the first time in the Department that we 
have a Native American who will serve as Solicitor General for 
the Department of Interior.
    I also have made an offer to a Native American who will 
become the Commissioner for the Bureau of Reclamation within 
the Department of Interior. Those are non-traditional positions 
for Native Americans to hold within the Department. But I think 
the people that we have here that we hopefully will get 
confirmed by this Senate in the next month or two are the kind 
of 800 pound gorillas that you want to work on the major 
problems that face the Department of Interior.
    So I want to say that at the outset in response to Chairman 
Dorgan's longstanding concern about the failure of the last 
Administration to fill the Assistant Secretary for Indian 
Affairs for a period of up to four years.
    Let me speak to four issues. They are the issues which I 
think Senator Udall, you spoke about, which I referred to 
yesterday and statements were made by our Native American 
leaders. First, I understand the importance of economic 
development. When you have reservations that have unemployment 
rates as high as 80 percent, where the per capita income for 
many of our Indian communities is half of what it is for the 
non-Native communities, it is clear that we have some major 
economic development challenges across Indian Country. I am 
hopeful that that will be one of those areas that we can work 
on, we can bring about new economic development opportunities 
for the Indian communities across our State.
    I believe the economic stimulus package, which I know some 
of you on this panel are supporting, some of you have concerns 
about the package, nonetheless, I think when that package comes 
across the finish line, there will be a significant infusion 
into Indian Country that hopefully will help us deal with some 
of the economic development challenges that we face in Indian 
Country. But I do intend to work with my Assistant Secretary of 
Indian Affairs and within the programs of the Department of 
Interior to put a spotlight on creating economic development 
opportunities.
    Secondly, energy development. We all know in this 
Committee, and many of you who are here who serve on the Energy 
Committee, the challenge that we face on this signature issue 
of the 21st century. And we will move forward with a very 
robust agenda that will develop a comprehensive energy plan for 
the Nation. It will involve the use of our conventional 
resources, oil, gas, and coal. But it will also move us forward 
to usher in a new frontier of renewable energy. And as we move 
forward with that agenda, it is going to be very important that 
that whole agenda is one that is fully shared by our Native 
American communities. Many of our best places for the 
development of wind energy and solar energy, for example, are 
found right in the reservations. And that, coupled with the 
already robust resources that are being developed in many of 
our reservations around the Country create significant economic 
development opportunities for our Indian tribes.
    Third, the issue of education. For me and many of you who 
know my own story, you know that I strongly believe that 
education is the keystone to everything else. My whole family, 
all eight of us in my generation became first generation 
college graduates, all of my siblings became first generation 
college graduates. I am here today as Secretary of Interior in 
large part because of the educational opportunities that I had.
    I want to provide those same kinds of opportunities to the 
First Americans of our Country. So we will work hard to make 
sure that that happens. We have about 50,000 students in 183 
schools in reservations around the Country. We have major 
problems in those schools, including performance in those 
schools, including dilapidated buildings. Our hope is that we 
will be able to put significant energy behind creating 
opportunities for the young people who attend those schools.
    Fourth, law enforcement. I understand very much what 
happens with lawlessness in reservations. In my own state, with 
the Mountain Utes and the Southern Utes, we have had 
experiences over the last 10 years during the time that I 
served as Attorney General, as well as during the time that I 
served as United States Senator, where we have seen, frankly, 
the rule of law essentially abandoned, especially in one of 
those reservations.
    So we have brought in resources that have included 
partnerships with the local FBI and local government to address 
some of the shortages that we have with respect to enforcing 
the law on those reservations. There is no reason why we cannot 
do more. I will be working closely to develop a program that 
focuses in on the law enforcement issues.
    I know from some of my friends in Indian Country, they have 
told me that methamphetamine is the scourge of the Indian 
reservations across the entire Country. Some have said that, 
you think about the level of usage and the scourge that it is 
creating in the reservation, it is the number one problem on 
the reservations today. So we need to do a lot more with law 
enforcement. I look forward to working with the tribes, as well 
as working with our law enforcement authorities, both at the 
Federal, State and local level, to see how we can bring about 
additional resources to make sure that the rule of law is 
upheld.
    And finally, I will comment on the trust status and some of 
the trust issues that have been raised, which have been 
problematic for past Administrations, both Democrats and 
Republicans. Two of my predecessors in the last 12 years have 
been held in contempt of court for the management of the trust 
assets of the Native Americans under the trust responsibilities 
of my department.
    The Cobell litigation is an outgrowth of the frustration 
with the management of those assets. We will try in the months 
ahead to see whether we can bring that litigation to 
conclusion. But as important as that litigation may be, it is 
also important that we manage the trust assets in an 
appropriate manner. We will commit the energies of the 
Department to make sure that we get that done.
    So in conclusion, Mr. Chairman and members of the 
Committee, I very much look forward to working with you. I 
believe that as we look at all these challenges we face, we all 
know that you can't wave a magic wand and all of a sudden the 
issue will be resolved. It is going to take a steady hand and a 
long-term sustainable commitment to address these issues, 
whether it is the issue of law enforcement, economic 
development, health care or the rest of the issues we talked 
about.
    But I am convinced that in partnership with you and in 
partnership with the tribes of America that we can make a 
difference, we can help change the world. But as we change the 
world, it is also important that we also change the world in a 
positive way for the Native American communities of our 
Country.
    [The prepared statement of Secretary Salazar follows:]

Prepared Statement of Hon. Ken Salazar, Secretary of the Interior, U.S. 
                       Department of the Interior
    Thank you, Chairman Dorgan, Vice Chairman Barrasso, and Members of 
the Committee. This is my first hearing since being confirmed as 
Secretary of the Interior. I am proud that my first hearing as the 
Secretary of the Interior is about America's First Americans. I am also 
honored to appear before the Senate Indian Affairs Committee to discuss 
the Department of the Interior's role for Indian Affairs.
    During his campaign for the Presidency, President Obama spoke out 
in support of empowering Indian people in the development of the 
national agenda. As President, he recognizes that federally recognized 
Indian tribes are sovereign, self-governing political entities that 
enjoy a government-to-government relationship with the United States 
government, as expressly recognized in the U.S. Constitution. I, too, 
am a strong supporter of the principle of tribal self-determination and 
will work to fully enable tribal self-governance.
    As Secretary of the Interior, I will work hard to empower America's 
Native American communities by helping address economic development, 
education, and law enforcement and other major challenges faced in 
Indian country.
    There are many challenges facing our Native American communities. I 
believe that together, we can create many opportunities for these 
communities to thrive and flourish. I am committed to restoring the 
integrity of the government-to-government relationship with Indian 
tribes. Together, through consultation and with a spirit of mutual 
respect and understanding, we can address these challenges and can 
create stronger economies and safer Native American communities.
    I am committed to ensuring that the Department of the Interior 
fulfills the trust responsibility of the United States. I will also 
seek to resolve the unending litigation about the management of these 
lands and assets. I would also like to reiterate my commitment to the 
settlement of Indian water rights claims.
    While there are many important priority issues for Indian country 
that I will address as Secretary, today I would like to discuss with 
you more fully four important areas for the Nation's Native American 
communities: Economic Opportunities, Energy Development and Climate 
Change, Education, and Law Enforcement.
Economic Opportunities
    For too long, Native Americans have experienced some of the most 
severe socioeconomic conditions in the United States. More than a 
quarter of all Native Americans live in poverty and unemployment rates 
reach 80 percent on some reservations. Real per-capita income of 
Indians is less than half of the U.S. level. Eight of the ten poorest 
counties in America include Indian reservations. Housing conditions in 
many of these areas are inadequate, and about 14 percent of all 
reservation families have no electricity.
    I believe that the Department of the Interior should be a partner 
with tribal communities to advance sustainable economic development. A 
good partnership between tribes and departmental programs in key areas 
will stimulate a much needed economic boost for tribal economies and 
the national economy. The Department's capacity to address 
infrastructure and employment needs through its programs will provide a 
framework for robust national economic development. Our programmatic 
outreach will extend from tribal water projects and loan guarantee 
programs to workforce training and transportation programs.
    In addition, the economic stimulus package will provide much needed 
economic development for Native communities. The bill would provide 
funds for infrastructure and workforce development, and create 
thousands of jobs.
    Today, approximately half of the 562 federally recognized tribes 
operate gaming facilities. This has created 670,000 jobs nationwide and 
provided $11 billion to federal and state governments through taxes and 
other revenue. The vast majority of these gaming operations are small 
enterprises that provide jobs to tribal members. Gaming revenues are 
important tribal resources for funding education, healthcare, law 
enforcement, and other essential tribal government functions. As 
Secretary of the Interior, I will implement the regulatory framework 
established by the Indian Gaming Regulatory Act and promote the 
government-to-government relationship between tribes and the federal 
government and continue to work with states and local governments on 
these matters.
Energy Development and Climate Change
    A defining issue of our time is energy and climate change. We must 
succeed as a Nation to create a new energy frontier. As Secretary of 
the Interior, I have been tasked by President Obama to take a key role 
in our moon shot to energy independence and addressing climate change. 
Indian lands can be a rich source of conventional fossil fuels. But 
they also have major renewable energy potential. One of the greatest 
opportunities for economic development for tribes can be the 
development of alternative energy sources, including solar, wind, and 
geothermal resources.
    Indian country offers some of the premier wind energy sites in the 
United States. The Office of Indian Energy and Economic Development has 
identified 77 reservations that possess commercial-scale wind resources 
and the ability to support viable wind-based economies. Forty of these 
locations are in states that enacted a Renewable Portfolio Standard 
requiring utilities to purchase a certain percentage of their power 
from renewable sources.
    Renewable energy projects could also spark creation of thousands of 
green-collar jobs. I look forward to exploring with our Native partners 
the potential for wind, geothermal, biomass and solar energy 
development that exists on those lands.
Education
    A key to success for the Nation's First Americans is a high-quality 
education. The Department of the Interior is responsible for 183 
elementary and secondary schools and dormitories as well as two Bureau-
operated post-secondary institutions. Our school systems serve 
approximately 47,000 students on or near 63 reservations in 23 states.
    Tribes today are struggling to preserve their native languages. We 
will be examining ways to preserve those languages through the Indian 
education system. We must also examine the No Child Left Behind Act and 
its implementation and the issues it has raised in Indian schools. I 
agree with President Obama and Vice President Biden that our children 
and our country need a vision for a 21st century education in Indian 
schools. This begins by demanding more reform and accountability and 
asking parents to take responsibility for their children's success. An 
example of this is the Family and Child Education (FACE) program, 
administered by the Bureau of Indian Education, which provides funding 
for Indian students and their families and prepares children for Indian 
education opportunities through early childhood education. 
Participation of children in the FACE program reduces the need for 
school-age special education by 50 percent. Additionally, this vision 
includes recruiting, retaining, and rewarding teachers who teach in 
Bureau of Indian Education schools. I will work on implementing the 
President's plan to restore the promise of America's public education, 
and ensure that American Indian children are provided the opportunity 
to lead the world in creativity and success.
Law Enforcement
    Finally, I want to fight crime in Indian country. As Colorado's 
Attorney General, I led efforts to make communities safer, fight crime, 
prosecute gangs, and address youth and family violence. These same 
problems plague Indian country. The crime rates on most reservations 
are unacceptably high. I will use my law enforcement experience to work 
with the kinds of partnerships that will help bring about safer 
communities, which in turn create stronger communities.
    The United States, through the Bureau of Indian Affairs, Office of 
Justice Services, and tribal programs, provides public safety and 
judicial services to Indian tribes and their communities. The 
Department provides either directly or through Indian Self-
Determination and Self-Governance contracts and compacts basic law 
enforcement services; local court services; detention and corrections 
programs; and professional training related to policing, detention and 
judicial services.
    As Secretary, I plan to address several key issues relating to law 
enforcement in Indian country. Violent crime in Indian country must be 
aggressively confronted and we will continue to work with Tribes and 
the Department of Justice in this regard. We will continue to 
aggressively attack methamphetamine trafficking and abuse in Indian 
communities. In a 2006 survey, 74 percent of tribal law enforcement 
officials reported methamphetamine to be the leading threat to their 
tribes. The dramatic increase in the use of this drug has brought with 
it increases in domestic violence, child neglect, crimes against women, 
and weapons charges. I also plan to address the serious declining 
conditions of detention facilities in Indian country as well as 
staffing needs for those facilities. And finally, I want to work on 
strengthening tribal court systems.
    Safer communities mean stronger communities. We must continue to 
work together, the federal government, States, and tribes, to ensure 
the safety and security of our First Americans. It is a responsibility 
that I take very seriously.
Conclusion
    Thank you for the opportunity to share my views on some of the 
critical Native American issues with the Committee. I look forward to 
working with you. Thank you.

    The Chairman. Mr. Secretary, thank you very much for your 
comments and your thoughts.
    Let me begin by saying, I don't intend to tarnish the 
Bureau of Indian Affairs completely, but I do have great 
difficulty with the BIA. I think it is unbelievably 
bureaucratic, very difficult to move on things. I won't give 
you all the evidence of that, but I hope you will tip that 
agency upside down, shake it and then set it back upright to 
see if we can rearrange it and make it work. Part of that, of 
course, is selecting the right Assistant Secretary, getting 
somebody in place.
    Again, I know there are some wonderful people that work in 
the BIA. But I could tell you stories that would just make you 
furious about the lack of things getting done over there. It is 
just big, bureaucratic and not very workable.
    I am going to put a chart I think that shows oil 
development. This happens to be something I am working on, and 
by the way, thanks to George Skibine and some others, we made 
some progress. But oil development, you will see in the middle 
there, the Indian reservation is the gray. All the other marks 
there, the yellow and green, that is all oil wells that have 
been dug in the Bakken Shale, the biggest oil play in America.
    You will see there are oil wells drilled north, west, and 
south. The problem is that big old blank space in the middle; 
they are not drilling many wells. Why? Because there is a 49-
step process to get a permit. You have four different groups in 
the Interior Department that have to sign off: BIA, Minerals 
Management, BLM, Office of Special Trustee. The result is, all 
this oil development is going on, and the place where it is 
most needed and where oil exists under that ground is not 
happening very much.
    Now, we have made some progress. I have been pushing in 
recent months, we finally have made some progress on the 
virtual process and so on. And I appreciate that. But I tell 
you this only to say that in the absence of somebody saying, 
look, there is something massively wrong here, you have a 49-
step process with four agencies.
    It is just such an apt description of what is wrong. I was 
at an Indian reservation some while ago. They showed me a 
building that had been built, a beautiful building, I think it 
was three or four stories, maybe three stories high. Completely 
vacant. I said, why are there no tenants? They said, well, we 
have been waiting for the BIA to sign the lease. I said, how 
long have you been waiting for the BIA to sign the lease? Well, 
about a year, year and a half. Paper is in, just didn't get it 
done. So that big old building on the reservation sits empty.
    Well, enough about that. It is going to require effective, 
strong leadership to change a culture, in my judgment, in the 
BIA. You have described someone that you are vetting for 
Assistant Secretary. I understand that you are confident this 
is a person who can do that job. You are right that three of 
the last four years it has been vacant. And you feel, let me 
let you say it again, you feel confident you are on the trail 
of the right person to lead the BIA?
    Secretary Salazar. Let me just say that I have been serving 
as Secretary of Interior only since the 21st of January. At 
this point, I am the only person confirmed by the U.S. Senate 
to run the Department of interior. It is a big department with 
many bureaus and many agencies, 67,000 employees. There is a 
lot of work to be done. So we are spending a lot of time 
getting our team together. But we are searching for the best 
talent in the United States of America. I am confident that the 
talent we will be able to bring in will be able to provide the 
kind of organizational changes that you allude to.
    The 49-step process that you allude to is, I think, 
absolutely abysmal. It is something that needs to be fixed. We 
will give it a high priority. Laura Davis, who is not subject 
to Senate confirmation and is an Associate Secretary already, 
is working on trying to move forward to address a particular 
issue with respect to the permitting delays on the reservation 
that you spoke about, Senator Dorgan.
    So we are on the case. I recognize that one of the 
realities that we have to do is take a look at what we have 
inherited and try to make changes to make it work better.
    The issues of Native Americans are not to be partisan 
issues, they are not to be Democrat or Republican issues. But 
there is a fact that without an Assistant Secretary of Indian 
Affairs in place for the last three or four years, many of 
these issues have simply not been addressed. So we will be 
addressing them, especially as we get our feet on the ground 
and start getting our management team in place.
    The Chairman. The Economic Recovery act will almost 
certainly pass the Congress by week's end. That has about, I 
believe $2.8 billion of funding for a range of issues on Indian 
reservations. It deals particularly with construction projects, 
detention facilities, and a range of issues that will put 
people to work and also construct some long-delayed projects. I 
assume that you are working with your staff in order to be able 
to implement that and put the money out in a way that puts 
people to work and begins to address some of those needs?
    Secretary Salazar. We are indeed. From our point of view, 
the infusion of the economic stimulus money is about creating 
jobs. But beyond creating jobs, it is about creating some 
sustainability on some of these issues that confront us, 
whether it is in the world of the Native American community or 
whether it is other issues. So we are working hard on it. We 
are very aware of the opportunity that is presented to us. And 
it is for that reason that even yesterday I was probably having 
10 conversations with different people about helping us get the 
team in place. Because it is difficult, frankly, to move 
forward with a program that is as robust as the one we have in 
the Economic Recovery Program when we need to have people to 
make sure that we can implement in a quick fashion the 
opportunity that is presented to us.
    The Chairman. Mr. Secretary, we are going to be doing some 
listening sessions around the Country with tribal leaders and 
tribal members. We are also going to do some tours of some 
Indian reservations and we hope perhaps to invite you on a tour 
some place down the line, to join some members of this 
Committee to go out and tour some reservations and meet with 
some tribal members.
    I also want to make a point that we are going to continue 
to make Indian health care and the Indian Health Care 
Improvement Act a significant priority of this Committee. That 
is over in Health and Human Services with respect to the 
Federal agency.
    But the other piece that we are working on, and we began in 
the last session, is this law enforcement piece. We have such 
serious problems in law enforcement across the Country. On the 
Standing Rock Indian Reservation, we have violent crime that is 
five times the rate of the national average. It has nine full-
time police officers that are supposed to patrol an area the 
size of Connecticut.
    So an urgent call that comes in to law enforcement from 
someone who has just been raped or the victim of violent crime, 
they might have the law enforcement folks show up 10 hours 
later, 12 hours later, maybe the next day. It is a very serious 
problem, and we are taking it seriously. We have put together a 
piece of legislation that is bipartisan. We had 12 colleagues 
sign on. We want to work carefully with you and your 
organization, and the BIA, because we have to fix it. It 
requires some resources, but it also requires some 
reorganization as well. I wanted to just mention that to you.
    The key, I think, is for all of us to work together as you 
assume the reins at Interior and we try to focus on some of 
these critical issues.
    I do want to mention that we have been joined by Senator 
Johanns. We welcome you to the Committee, and we are pleased 
you are here. We load this Committee with folks from the 
northern Great Plains, as you know, who have a very significant 
interest in these issues.
    Let me call on the Vice Chairman.
    Senator Barrasso. Thank you very much, Mr. Chairman.
    Thank you, Mr. Secretary. I appreciated your comments. I am 
delighted that you are currently vetting someone for Assistant 
Secretary of the Bureau of Indian Affairs, a position that was 
too long vacant. I am delighted to hear your comments about the 
importance of economic development, energy development, 
education, law enforcement, one right after another. I want to 
echo so many of the comments by Chairman Dorgan. We are going 
to address issues with Indian health. I am looking forward to 
working with him.
    Like all the members of this Committee, I have experience 
within our own State of concerns. On the Wind River Reservation 
there is an irrigation system. The GAO reported in 2006 that 
there was over $84 million in deferred maintenance. Congress 
appropriated $3 million for this in fiscal year 2006 and 2007. 
The State of Wyoming, and I was in the State legislature, 
provided a matching amount, another $3 million for repairs.
    There still appear to be delays and difficulties in 
spending draw-downs from the BIA for the project repair and 
maintenance. I will ask you or your staff to look into this and 
ensure that the Department will cooperate and coordinate better 
with the Eastern Shoshone and Northern Arapaho Tribes to 
complete the irrigation project repairs in a timely manner for 
money that has already been appropriated. So if I could ask you 
to look into that, Mr. Secretary, I would appreciate it.
    We talked about law enforcement, and we talked about 
education. And you mentioned your own family experience, which 
is the same as my own in terms of how important education was. 
Safe schools to me is the key. That plays into both the issue 
of education as well as into the issue of law enforcement. The 
Wind River Reservation in Wyoming is almost the size of the 
State of Connecticut. We have two officers in an area that 
size. So it can be 12 hours or the next day until someone can 
respond to a law enforcement problem.
    So I would ask that you also try to address the issue of 
school safety as part of both education as well as law 
enforcement. I don't know if you have any thoughts on that, or 
how you want to pursue these issues in a timely manner, Mr. 
Secretary.
    Secretary Salazar. Senator Barrasso, I appreciate the 
question. Let me just say, on school safety, obviously, I was 
the Attorney General on April 20, 1999, when the bloodiest 
school shooting in America took place right in my State. So I 
have spent a lot of my time in public service actually working 
on trying to create safe schools, and have ideas about how we 
can take the blueprints of the kinds of plans that have been 
created at the University of Colorado for school violence 
prevention and the like. So we will look at that in connection 
with the creation of safe schools.
    On the Wind River Reservation and the water project, let me 
take a look at that and have my staff look into that and see 
where we are and where we might be helpful.
    If I may, just reverting back, Senator Dorgan raised two 
issues on health care and law enforcement. Your eloquent 
speeches last year will never be forgotten by me as I sat in 
the chair and I heard you describe the reality of the dismal 
health care conditions in Indian Country. And though it is not 
my department, there is a role I will play there, and indeed, 
even last week have talked to members of the House of 
Representatives about the importance of that particular 
legislation.
    On law enforcement, I think that the experience that I 
bring from law enforcement, as well as the experience that my 
chief of staff, Tom Strickland, will bring to the law 
enforcement issues. He will be very helpful. Tom Strickland 
served as United states Attorney for Colorado. He knows these 
issues in terms of the partnerships that need to be brought 
together. So it will be a high, high priority for my 
Administration to deal with the law enforcement issues that 
both of you mentioned.
    Senator Barrasso. Thank you, Mr. Secretary.
    Thank you, Mr. Chairman.
    The Chairman. Senator Tester.
    Senator Tester. Thank you, Mr. Chairman.
    I want to tell you what a pleasure it is to have you here 
today, Secretary Salazar. There are tons of issues out there, 
the Chairman and Ranking Member have delineated them pretty 
well. I am just going to touch on a couple that are pretty big 
from my perspective.
    One of them is Indian water settlements. We have got two 
authorized in the State of Montana, I think there are four 
others in the Country that are pending here in Congress. I just 
wanted to know your perspective on those water settlements. I 
know your focus right now, it is kind of unfair, your focus 
right now is building a team, and I appreciate that. I really 
think that is critically important.
    But as you look out, where do you see these water 
settlements, as far as the completion of them? Basically what I 
am going to ask you in the end is, is the Department going to 
take an active role in trying to help us get these water 
settlements through?
    Secretary Salazar. Senator Tester, I thank you for your 
friendship and your guidance on so many issues, including this 
issue. We will recognize there are four, five, perhaps six 
settlements that are in the offing, some of which have been 
introduced in the prior Congress. And they will be of high 
priority for me. There may have been other Secretaries of 
Interior, but I have worked on many of these settlements 
myself, including the one that resulted in the Indian water 
rights settlements in Colorado. Colorado stands, I think, 
almost alone as a State where we don't have any issues with our 
Native American tribes, because we were able to resolve these 
settlements. I know they were complex and difficult and 
expensive. But some of them have dragged on for too long, 
decade after decade after decade without any resolution.
    So when you get to the point where you have the dynamics of 
the possibility of settlement, I think it is important for 
there to be leadership, including the leadership of the 
Secretary of Interior, to try to get it across the finish line. 
So we will pay attention to them. We will make sure that we 
have them prioritized. In fact, last night, I was having 
conversations about someone who might be a special counsel just 
on Indian water rights settlements that will work within the 
Secretary's office. So it is high on our radar screen.
    Senator Tester. Thank you very much. The tribal recognition 
process is an issue that, it needs improvement from my 
perspective. Let me give you an example. We have a band of 
Indians in Montana called the Little Shell that actually 
started in 1978 trying to get recognition, shortly after the 
bill was passed to allow the process for a tribe to achieve 
recognition. Over the last 31 years, they have had information 
requested of them which I think is appropriate, but it has gone 
on and on and on. Actually, it was about a month or two ago I 
thought maybe we were going to finally get a decision, and it 
has been delayed for another six months.
    I think the Chairman has said before, and I agree with him, 
I would like to see the process work. I don't really want to 
see Congress have to intervene for recognition of tribes. But 
the truth is, from my perspective, it shouldn't take 31 years 
for a tribe to get recognition. And all I am asking for is an 
answer, yes or no, do you think there are things you can do to 
speed up this process of tribal recognition to make sure that, 
number one, the information, when they get the information, I 
don't know why it is continually put off, I don't, but they can 
ultimately come to a conclusion or make a decision? What is 
your perspective on the tribal recognition process and how do 
you see it moving forward under your leadership?
    Secretary Salazar. Senator Tester, I think that when one 
has to wait for a process that lasts 31 years to get an answer, 
that it is too long. So I think this is an area which needs 
examination to determine what it is that we can do to try to 
improve it. It is a complicated issue, it is not a simple issue 
in terms of tribal recognition and the legal implications that 
result from that kind of recognition.
    But there is no reason why we should have a process that 
essentially just ends in an endless road year after year after 
year. So we will take a look at the process and see if there 
are ways in which we can improve upon it.
    Senator Tester. Thank you. One other thing, and like I 
said, when I first got to this Committee, when I first got this 
appointment, I met with a group, and I said, what are the 
issues. They started laying out the issues and finally, after 
about 10 minutes, I said, stop. We have to prioritize, because 
you have too much stuff. And that is kind of the way this 
Committee meeting could be. There are so many issues out there, 
as you know full well, that we could literally spend all day 
talking about the challenges in Indian Country.
    I do want to talk about the first thing that you talked 
about as you referred to Senator Udall's statement on economic 
development and how critically important it is that we get the 
unemployment rate down and we get the business community 
cooking in Indian Country.
    What role do you see tribal colleges playing in the 
economic future of Indian Country?
    Secretary Salazar. I think tribal colleges, Senator Tester, 
are very important in terms of creating the kind of educated 
workforce that is needed to bring about that kind of economic 
development. And I do think that many of the problems that we 
see on the reservations beyond the high unemployment rate, the 
dropout rates, the issues with law enforcement, the high crime 
rates on the reservation, are frankly rooted in the economic 
condition in those reservations.
    So I think the more we can do for education, the more we 
will then be able to change about the economic realities that 
are faced by First Americans across this Country. So I 
recognize the nexus that is there.
    Senator Tester. Well, I appreciate that. I think I will 
just close with this. Before you were confirmed to this 
position, I made an offer for you to come to Montana. That 
offer is still there. And we can take a look at both what is 
going on in Indian Country and some things that the Department 
of Interior has specific oversight of. We look forward to 
making that happen. Thank you.
    Secretary Salazar. Thank you, Senator Tester.
    If I may, Chairman Dorgan, one of the realities of this 
Department that I have frankly discovered in the first few 
weeks that I have been there is that there is a perception that 
this is a department only of the west. It is not a department 
only of the west, it is a department of all of America. When 
you think about the reach of this Department, it is from sea to 
shining sea and out beyond the seas, because of the continental 
shelf and the 1.75 billion acres that are there. The Native 
American communities have a presence, frankly, all across the 
Country, and they have different kinds of issues, depending on 
whether they are from the High Plains or the eastern coasts and 
the like.
    So one of the things that I actually find very interesting 
and very challenging is trying to get around to the different 
places where the responsibilities of the Department are frankly 
at stake and are on display. Certainly whether it is Montana or 
North Dakota or South Dakota, I can think of lots of different 
things from Native American issues to water projects to 
national park issues to a whole host of other things that are 
important to your State.
    So I hope to be able to spend as much time as I can coming 
out to your respective States and joining Chairman Dorgan. Also 
perhaps I was thinking in North Dakota, maybe a trip out to a 
reservation, but also to see some of the energy projects that 
you and I have talked about, as well as some of the water 
projects. So it would become a matter of timing and scheduling, 
because there is also the reality, I have to spend some time at 
work and getting the job done. But I will try to do as much as 
I can.
    The Chairman. Before I call on Senator Johanns, let me make 
a point on this issue of tribal recognition. I went through a 
list of things we are going to work on, health care, law 
enforcement, housing, education and so on. And in education, 
tribal colleges, as my colleagues have mentioned.
    This issue of tribal recognition is enormously troubling to 
me, because I don't want the Congress or this Committee to be 
the arbiter of who should be recognized and who shouldn't be 
recognized. That is a job that should be done by the Interior 
Department through a process that we have described in law and 
for which you have written some regulations in the Interior 
Department.
    But my colleague from Montana is absolutely correct, Mr. 
Skibine knows that we have complained about this for a long 
while, the system isn't working. We really do have, in many 
cases, 20, 30 or longer years in which tribes file petitions 
and never quite get an answer, and it gets delayed and delayed 
and delayed. It is just not working. Perhaps on your watch, we 
can make this system work, so that we have a recognition system 
at the agency that will actually function and get a final 
resolution of these issues.
    We have the Lumbee Tribe, some Virginia tribes, Little 
Shell, we have a good number of tribes that have come to the 
Congress saying, we want you to pass legislation giving us 
recognition. I would much prefer that that be done in Interior. 
Lumbee has a separate issue, because they are prevented from 
going through this process in Interior.
    But we want to work with you on that. I know my colleague 
from Montana feels that way. We really want to figure out how, 
determine how we can help you fix this process. In the 
meantime, we are going to have some hearings in an effort to 
work with these tribes to determine how long has it been, what 
has been the problem with their petitions and do we have to 
move or do we wait for the process.
    So I just wanted to say that, because I think it is very 
important. Many of them have been waiting a long time, and many 
have died while the petitions have been in front of the 
Interior Department.
    Senator Johanns.

                STATEMENT OF HON. MIKE JOHANNS, 
                   U.S. SENATOR FROM NEBRASKA

    Senator Johanns. Thank you, Mr. Chairman.
    Let me start out, if I could, Mr. Secretary, and speak in 
reference to what the Chairman was talking about, relative to 
energy and exploration. I thought that map was very telling. 
This is my first hearing, so I thought it probably would not be 
appropriate for me to stand up and cheer or yell amen.
    But the Chairman is right, this takes too long. And a 
process that has that many steps, I will be very honest, I am 
not sure why people bother with it. Because it has to be so 
impossibly cumbersome.
    So I lend my bipartisan voice here in saying, this is 
something that really needs some attention. You will get strong 
applause on this Committee if you can tackle this one.
    Another thing that I just wanted to offer as a suggestion, 
because it worked very, very well for me as a governor. I would 
have an annual tribal summit, and we would work on an agenda 
and really put some time and effort into it. I don't know if 
you can do that on a national basis, but one of the things I 
would encourage is to go out to the States and maybe have a 
tribal summit in a few states each year, where you can really 
zero in on those tribes and what their issues are. I think 
listening is always a very good thing, and they will be very 
excited to have you there listening.
    Now if I might zero in on a couple of things here, health 
care. I will never forget visiting a reservation in Nebraska as 
governor, and I visited a dialysis center. It was very, very 
nice. It had just opened, and it was doing exactly what people 
hoped it would do. But as we talked about the need for that 
center, and I am drawing on memory here, but I think I was told 
that 40 percent of the adult population on that reservation had 
diabetes. It is just an enormously serious health condition, as 
you know. There are just so many things that happen to a 
person's health if they have diabetes, none of them good.
    I would really ask you for your thoughts on this and how we 
might develop maybe even some kind of focused effort here to 
deal with this. Because it is not only treating diabetes, it is 
what gets us to that. Is it diet? Is it alcohol abuse? What is 
it and how do we get in front of this? Because this is a plague 
upon Indian Country. And if we don't deal with this, it is hard 
for me to imagine these other issues that we are concerned 
about work very well.
    Your thoughts on that, Mr. Secretary?
    Secretary Salazar. First, Senator Johanns, let me 
congratulate you on your election, and now your service in the 
U.S. Senate. I was thinking that the last time that you and I 
had a conversation, I was up there and you were down here.
    [Laughter.]
    Senator Johanns. Let me say the view is better from here.
    [Laughter.]
    Secretary Salazar. There is life after being a Secretary, 
see. But I am very excited about the current position that I 
have. Congratulations to you.
    Let me just say, your concept of an annual summit, that may 
make some sense for us. Let me try to figure out whether that 
is something that we can in fact do. It probably would be more 
effective, frankly, if we did that together. We might do that 
with this Committee and others that are involved.
    That leads me a little bit to the issue of health care. 
There are some aspects of health care that we can work on 
within the Department of Interior, but most of that is over in 
HHS. And so how we work on this panoply of issue is going to 
require a commitment on the part of the entire Administration 
to deal with these issues. President Obama is committed to 
making sure that we change the conditions in Indian Country, 
all across the Country.
    So I am certain that whoever it is that becomes the Cabinet 
Secretary for HHS will have this as a high priority.
    I think the issue of diabetes in the Native American 
communities is frankly only more stark than it is with the rest 
of the Nation, and the problems we have with health care. How 
we move forward with health care reform, especially in the area 
of prevention, is something that is very important. I have seen 
relatives of mine, frankly, die from diabetes conditions. There 
are things that can be done early on in life to try to prevent 
all the health problems that are associated with that 
particular condition.
    So it will be something that will be on my radar screen. It 
will be something that I will work on with my fellow Cabinet 
members and with President Obama to try to address in the great 
program that we need to move forward to deal with the health 
care crisis that we have in this Country.
    And like with all other problems that we are facing in 
America today, when you look at Indian Country, the problems 
there are simply exacerbated over what we see with non-Native 
American communties.
    Senator Johanns. A final thought I just wanted to offer, 
and it is really not a question, but it is a final thought. And 
I think you touched on it, and it is very good. The inter-
relationship between the departments is so hugely important. I 
must admit, as a Cabinet member, it took me a while to figure 
that out. But once we figured it out and started pooling our 
resources and our talent, et cetera, things just went a lot 
better. It did seem like you could kind of get through some of 
the red tape. I just think anything you can do to work with the 
Ag Department, Health and Human Services, will pay big 
dividends. And the sooner you start that, the more opportunity 
you have.
    So I think those things are just enormously helpful and 
very positive. And I would encourage you to do that.
    Secretary Salazar. Thank you very much.
    Senator Johanns. And congratulations to you. I was excited 
by your nomination. I think you are the right person for the 
job, and I will wrap up by saying, you do have some challenges. 
But I wish you the best, and if I can help, let me know.
    Secretary Salazar. Thank you very much, Senator.
    The Chairman. Mr. Secretary, it is probably safe to say 
this will be the easiest hearing you will have attended as 
Secretary when you finish your service as Secretary. I think 
most of us are pleased that you are there and wish you well.
    Senator Johanns has talked about the diabetes issue. I 
wanted to mention that it is a scourge, and imposes such a 
heavy cost and heavy burden on the Indian population in this 
Country. We do have a special diabetes program, as you know, 
but that is, in many ways, complicated. We have that, I 
believe, funded through Labor HHS, in the appropriations 
process here. We have the Indian Health Service funded through 
the Interior appropriations process, despite the fact that the 
Indian Health Service is over in Health and Human Services.
    So we need to find a way to see if we can bring this, 
establish some order here and how we consider these issues. As 
soon as we have people in place and nominated and confirmed, we 
will have Indian health folks in front of us and hopefully the 
Secretary of Health and Human Services as well to talk about 
Indian health.
    As you know, we have our own special diabetes program 
focused on reservations. It has to gain a lot of our attention 
and focus because it imposes such a huge burden. Many, many 
years ago, when my colleague, the late Mickey Leland from 
Texas, served with me in the House, we went along with 
Congressman Penney from Minnesota to do a hearing out on a 
reservation on diabetes. And it was a pretty unbelievable 
hearing. On that reservation, I believe the rate of diabetes 
was not double, triple or quadruple the national average, it 
was ten times the national average. It is just a devastating 
impact on the population in Indian Country.
    So my colleague from Nebraska is absolutely right. We want 
to make that a priority in our Indian health care 
considerations.
    Let me complete this hearing as I started it. It is not 
easy to get your arms around the Bureau of Indian Affairs, just 
because it is a big old bureaucracy. Probably there are some 
good people working there. But there are other people who, I 
think, view themselves as human brake pads and try to slow 
everything down and stop it if they can. So we need to make 
that agency an agency that all of us can be proud of, that is 
on the front end of making things happen, making good things 
happen to address the significant problems that exist in Indian 
Country. All of us know that they were here to greet any one of 
our ancestors who showed up, they were the First Americans. And 
I have often said the First Americans should not have second 
class health care or second class education or second class 
housing. We need to work on these issues, because we have made 
commitments and solemn promises and have a trust responsibility 
that we have not yet met.
    I was so pleased when your nomination was announced, 
because I know your background and have served with you and 
know your acquaintance with these issues. You don't come to 
this job not having had an acquaintance with all of these 
issues affecting Native Americans. I know that from your 
service here in the Senate and also from your service in 
Colorado.
    So I appreciate the work that I know you will do to 
coordinate with this Committee on so many issues and we 
appreciate your attendance here today.
    Secretary Salazar. If I may, Chairman Dorgan, let me also 
say that I am the first to recognize that I have a lot to learn 
about these issues. When I look at the collective wisdom that 
you bring, along with the rest of the members of the Committee 
and the staff of this Committee, we need your help. You know 
what the issues are and you have spoken to them so eloquently 
over the years. Ultimately, we will be able to succeed in 
dealing with these issues, from health care to law enforcement 
to education, to economic development, to trust 
responsibilities, frankly, if we have the working relationship 
where we are able to steal your ideas and learn from you as we 
move forward.
    So I very much look forward to working with you.
    The Chairman. Well, that is very well stated. This is not 
some mysterious illness for which we don't know a cure. We know 
the issues out there, we know how to address them and deal with 
them if we commit the resources and our time and our 
dedication. I thank you for serving as Interior Secretary.
    This hearing is adjourned.
    [Whereupon, at 10:30 a.m., the Committee was adjourned.]
                            A P P E N D I X

   Prepared Statement of Hon. Chris Devers, Chairman, Pauma Band of 
      Mission Indians; Chairman, Council of Energy Resource Tribes
Introduction
    Good morning Chairman Dorgan, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. On behalf of 
CERT's 57 member Indian tribes, I want to thank you for holding today's 
hearing to receive the views of Secretary Ken Salazar on matters 
related to Indian affairs and policies.
    My name is Chris Devers and I am Chairman of the Pauma Band of 
Mission Indians in California and also Chairman of the Council of 
Energy Resource Tribes (CERT) which has its headquarters in Denver, CO.
    I would like to congratulate Secretary Salazar on his confirmation 
by the U.S. Senate and pledge to him CERT's good will and strong desire 
to work together on the many challenges we will confront together in 
the coming years. I am pleased to submit the following statement 
regarding energy development, environmental stewardship, job creation, 
and trust management in Indian country.
    CERT was founded in 1975 by American Indian tribal leaders when our 
country was in the midst of what was then known as the ``Arab Oil 
Embargo.'' The embargo was put in place by the Organization of 
Petroleum Exporting Countries in response to America's support for 
Israel in the 1973 Arab-Israeli War. Many of us remember that the 
embargo caught America flat-footed and resulted in higher prices for 
heating oil and gas rationing that created long lines at the gas 
stations.
    Back then, our national leaders promised that we would ``end our 
dependence on foreign oil'' and return America to a position of 
unquestioned strength in the world. Well, here we are nearly 40 years 
later and our dependence on imported oil and even natural gas has grown 
much worse. Historical context is important because CERT's mission is 
to support its member Indian tribes in the development of their 
management capabilities and the use of their energy resources to build 
sustainable economies and strong political institutions.
    The Department of the Interior (DoI) is integral to the success of 
our member tribes and indeed Indian tribes across the country. 
President Obama has made clear that when it comes to meeting the energy 
needs of America, his Administration will pursue an ``all of the 
above'' approach to include renewable and non-renewable energy sources. 
I wish to make clear to the Committee that CERT is in agreement with 
this approach and that American Indian energy is American energy and 
when it comes to meeting our energy needs and related job creation, we 
should stress the development of our domestic supplies.
The Potential of American Indian Energy
    American Indian energy holds enormous potential to create thousands 
of good-paying jobs, generate significant revenues, and aid in the 
development of tribal economies as well as help satisfy the American 
economy's need for a reliable energy supply. Three factors contribute 
to this scenario:

        1. The enormous tradition energy reserves such as oil, gas, and 
        coal, and the promise of renewable resources owned by Indian 
        tribes;

        2. The pricing environment for energy products; and

        3. The enactment by Congress in 2005 and 2007 of classically 
        liberal, pro-production energy policies. \1\
---------------------------------------------------------------------------
    \1\ These are the Energy Policy Act of 2005 (Pub.L. 109-58) and the 
Energy Independence and Security Act of 2007 (Pub.L. 110-240). Both 
statutes contain provisions favorable to Indian tribal energy 
development and environmental management.

    One merely witness the phenomenal success of the Southern Ute 
Indian Tribe in southwest Colorado, the Ute Tribe of the Uintah and 
Ouray Reservation in northeast Utah, and the Osage Nation in eastern 
Oklahoma to understand that American Indian energy resources, prudently 
managed, can transform Indian economies and assist tribes in achieving 
real and lasting self-determination.
Indian Tribal Energy Resources and the Pricing Environment
    American Indian tribes in the lower 48 states--especially those in 
the Rocky Mountain west--own an enormous amount of energy resources. 
With the current Federal restrictions on exploring for energy in the 
Great Lakes, the eastern portion of the Gulf of Mexico, the California 
coastline, and the Alaska National Wildlife Refuge (ANWR), Indian 
tribal resources and lands in the Rocky Mountain West present one of 
the most significant opportunities for domestic production in the 
United States.
    In what is now a dated analysis, in 2001 the U.S. Department of the 
Interior (DoI) estimated the total dollar value of energy produced from 
Indian tribal lands for the period 1934-2001 to be $34 billion. These 
revenues derived from 743 million tons of coal, 6.5 billion cubic feet 
of natural gas, and 1.6 million barrels of oil. In terms of undeveloped 
reserves and undiscovered resources, the DoI projected that Indian 
tribal lands could prospectively generate $875 billion, derived from 53 
billion tons of coal, 37 billion cubic feet of natural gas, and 5.3 
million barrels of oil. These projections were made in 2001 and in the 
intervening 7 years, the price of energy products has increased 
significantly so that, currently, the likely revenue projection would 
be nearly $1.5 trillion.
The New Energy Laws of 2005 and 2007
    On August 8, 2005, President Bush signed into law the Energy Policy 
Act of 2005 (Pub.L. 109-58) which included as Title V the Indian Tribal 
Energy Development and Self Determination Act. The new law authorizes a 
variety of Federal technical and financial assistance to participating 
Indian tribes and seeks to reduce administrative obstacles at the 
Federal level to encourage greater levels of energy development on 
tribal lands.
    Unlike some congressional enactments, the new Indian tribal energy 
law does not discriminate in terms of renewable versus non-renewable 
resources. Instead, the law leaves the decisions over whether and how 
to develop tribal energy resources to the Indian tribe and the energy 
markets. The centerpiece of the new law is the authority provided to 
the Secretary of the Interior to negotiate and enter agreements 
(``Tribal Energy Resource Agreements'') with willing tribes that would 
govern energy and related environmental activities on tribal lands.
    Final regulations to implement the Tribal Energy Resource 
Agreements (TERA) authority were issued in 2007 and the Department's 
Office of Indian Energy and Economic Development (OIEED) is now poised 
to work with interested tribes to negotiate what are essentially bi-
lateral agreements between the Department and the tribes. CERT urges 
the Secretary to ensure that the TERA process continues, that Indian 
tribes are apprised of their options under the new law, and that the 
OIEED and the tribes have the funding they need to ensure the success 
of the new energy law.
    Similarly, in 2007, Congress enacted and the President signed the 
Energy Independence and Security Act (``EISA'', Pub.L. 110-140) which 
contains significant opportunities for tribes and tribal colleges to 
receive research, development, and production grants related to 
renewable and alternative energy development. The Act authorizes 
billions of dollars for these purposes and is the most significant 
energy research law to be enacted in years.
Energy Project Development is Key
    The new energy laws were signed into law in 2005 and 2007 and the 
regulations to implement them are now in effect. For the past four 
fiscal years, the Congress has appropriated funds for the OIEED and the 
Department of Energy's Office of Indian Policy and Programs, both of 
which are charged with administering the new laws. These offices have 
been very active and responsive to the potential for Indian tribal 
energy and have assisted Indian tribes that seek to develop their 
energy resources.
    CERT's perspective on all of these developments is that the next 
steps involve Indian tribes inventorying their energy resources, 
identifying potential projects, and working with energy and financial 
partners to bring these projects to completion. The Department can and 
should play a vigorous role in assisting tribes in these efforts.
    The tribal energy programs carried out by the OIEED are 
administered in the Minerals and Mining account within the BIA's Trust-
Natural Resources Management budget activity. For FY 2009, this account 
will receive a total of $2 million: $1.4 million is for grants to 
tribes, and $600,000 for the OIEED to consult with Indian tribes and 
begin the TERA review process. To launch energy projects in earnest, 
CERT believes increases of $1 million for grants to Indian tribes and 
$500,000 for TERA implementation are justified.
    The OIEED also manages the Indian Guaranteed Loan Program which 
guarantees loans made by private financial institutions for a wide 
variety of tribal economic activities including energy development.
    The Indian Guaranteed Loan Program is among the most flexible and 
efficient tools to encourage tribal economic development, including 
energy development. The BIA provides approximately 50 new loans 
annually under the program. Existing loans range from $250,000 to $18 
million. Every dollar appropriated to the program is leveraged at least 
sixteen-fold, thereby maximizing the funding available to Indian 
country from private lenders. CERT urges the Secretary seek $12 million 
in FY 2010 to facilitate economic development in Indian country and 
encourage private investment on Indian lands.
The Office of Minerals Evaluation
    The Office of Minerals Evaluation (OME) performs subsurface 
economic evaluation to determine the value of the subsurface estate for 
Indian trust and restricted lands. For Indian tribes and individual 
Indian land owners, this is an important step to obtain Secretarial 
approval for mineral leases. Without this evaluation, it is impossible 
for the Secretary to determine that the Indian interest owner is 
obtaining fair value.
    CERT understands that at one point in 2008, the Department was 
considering outsourcing these appraisals, a move that CERT opposes. The 
OME is uniquely situated to utilize data from Indian tribes and within 
the Department to generate fair appraisals that the Indian landowners 
have confidence in. Any plan to outsource this function would erode 
this confidence.
A ``National Tribal Energy Efficiency Initiative''
    In addition to renewable projects, another initiative that would 
generate jobs in the short-run and long-run, will have positive 
environmental impacts in Indian country, and will produce greater 
economic benefits for virtually every Indian tribe in the country. The 
initiative CERT has in mind would be something along the lines of a 
``National Tribal Energy Efficiency Initiative'' that could fund 
virtually every Indian tribe. The initiative would be massive but, if 
properly structured, would maximize the use of local labor and local 
Indian contractors.
    In addition to home weatherization, the initiative could include 
all tribal government buildings and Federal facilities located on 
tribal lands. The high cost of heating and cooling because of poorly-
constructed and poorly-insulated buildings equipped with highly 
inefficient lighting and H-VAC systems erodes program budgets, reduces 
services and produces environments that are not healthy for workers or 
for people who use access the facilities. It would dramatically reduce 
the operating and maintenance costs for health clinics, hospitals, 
schools and tribal colleges, tribal administrative buildings, and other 
structures on tribal lands.
    The initiative would also have an immediate impact on the utility 
bills for heating for the most vulnerable Indian populations in the 
Northern tier of the country from the Pacific Northwest to Maine, the 
Tribes of the Four Corners Area, and the poor families of the Oklahoma 
Indian Tribes. And for the desert southwest Tribes, their weather 
related issues come in the summer months. Regardless of their 
geography, all of the Tribes have vulnerable populations: the elderly, 
infants and the disabled.
    In a relatively short period of years, the initiative would 
transform Indian Country from among the most energy inefficient to 
among the more energy efficient and would lead to better health, more 
efficient programs and more competitive tribal economies. The energy 
savings could be measured in real dollars because the good thing about 
energy efficiency is that the savings are not one-time occurrences but 
accrue year after year. Even a massive Federal expenditure in an 
initiative of this type would be repaid in savings in 3 to 5 years, and 
would continue for another 10 to 20 years, depending on building 
maintenance.
Improving and Reforming Trust Management Practices
    For decades, the issue of trust improvement and reform has 
bedeviled the United States and Indian country and lead to costly and 
acrimonious litigation and legislative battles that have sapped the 
morale of the Department and lead to a massive loss of confidence by 
the Indian tribes.
    Efforts to reform the broken trust management system have resulted 
in any number of proposals and counterproposals that ultimately have 
not served the interests of the Indian beneficiaries. The simple fact 
is that the often-tepid attempts to reorganize and reform the Bureau of 
Indian Affairs, Office of Special Trustee for American Indians, and 
other Departmental offices have failed and the ongoing failure is 
resulting in the underutilization of Indian land and trust assets and a 
reduced material standard of living for Indian people. The Obama 
Administration and Secretary Salazar have committed to working with 
Indian country on the many issues that continue to challenge tribal 
governments and Indian people.
    Among these should be the following which involve working with both 
the Indian tribes and the Congress:

  <bullet> Achieving negotiated settlements of both the soon-to-be re-
        named Cobell v. Salazar Individual Indian Money (IIM) lawsuit 
        and the Indian tribal trust cases that are now pending;

  <bullet> Developing a comprehensive, effective, and well-funded 
        approach to stop and reverse the effects of fractionation and 
        reconsolidate the Indian land base;

  <bullet> Effectuating necessary changes in the law to foster land and 
        natural resource management regimes that respect tribal 
        authority and maximize decision-making; and

  <bullet> Reshaping the Bureau of Indian Affairs, the Office of 
        Special Trustee for American Indians, and the other 
        Departmental offices so that these agencies can respond to and 
        serve the needs of Indian tribes and their members.
Conclusion
    Chairman Dorgan, this concludes my statement and I would be happy 
to answer any questions you might have on these matters.
    Thank you again for the opportunity to express the views of CERT 
and its member tribes.
                                 ______
                                 
 Prepared Statement of Hon. Charles Dorame, Chairman, Northern Pueblos 
                   Tributary Water Rights Association
Introduction
    Good morning Chairman Dorgan, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. My name is 
Charles Dorame and I am the Chairman of the Northern Pueblos Tributary 
Water Rights Association (NPTWRA) which is comprised of the Pueblos of 
Nambe, Pojoaque, San Ildefonso, and Tesuque.
    I want to thank you for convening this important hearing to receive 
the views of Secretary Ken Salazar on matters of Indian affairs and 
also to congratulate Secretary Salazar on his recent confirmation by 
the U.S. Senate. I would be remiss if I did not also congratulate our 
former congressman Tom Udall on his election to the United States 
Senate and his decision to join this Committee which we, of course, 
applaud.
    Last, I would like to give this Committee and the Secretary our 
sincere pledge to work collaboratively on the issues sure to come 
before us in the coming years, including legislation to resolve long-
standing water rights litigation involving the Pueblos in New Mexico.
    In 2008, legislation was introduced by then-Congressman Udall and 
Senators Bingaman and Domenici to provide congressional ratification to 
the Settlement Agreement to resolve the case of State of New Mexico ex 
rel. State Engineer v. Aamodt, No. 66cv6639 MV/LCS (D.N.M.). As this 
Committee knows, the Aamodt case has been left unresolved for 43 years.
    These settlement bills (H.R. 6768 and S. 3381) were subject to 
legislative hearings in the committees of jurisdiction and the Senate 
version was reported favorably to the full Senate for its 
consideration.
    Since the autumn of 2008, the Pueblos of Nambe, Pojoaque, San 
Ildefonso, and Tesuque (``the Four Pueblos'') have been working in good 
faith with the State of New Mexico and representatives of the U.S. 
Departments of Interior and Justice to resolve outstanding issues 
relating to the prospective liability of the U.S. and the structure of 
the way the settlement would be financed. Negotiations with the state 
and Federal parties are continuing in an effort to resolve these 
matters.
Background on the Settlement and Its Terms
    In the Pojoaque River Basin (``the Basin''), a tributary of the Rio 
Grande in northern New Mexico, conflicts over scarce water resources 
were litigated for decades. In 1966, then-State Engineer S.E. Reynolds 
brought suit against all water right claimants in the Basin to 
determine the nature and extent of their water rights. This case, State 
of New Mexico ex rel. State Engineer v. Aamodt, No. 66cv6639 MV/LCS 
(D.N.M.) was litigated for decades but in January 2006 a comprehensive 
Settlement Agreement was entered between by the Four Pueblos, the State 
of New Mexico, the City of Santa Fe, the County of Santa Fe, and 
others.
    The settlement parties have worked hard and in good faith to 
identify and agree to areas of mutual interest and to fairly negotiate 
those matters that proved contentious.
    Once approved by Congress, the Settlement Agreement would achieve a 
number of important priorities including the following: (1) Securing 
water to meet the current and future needs of the Four Pueblos; (2) 
Protecting the longstanding water uses and resources that make the 
Basin unique; (3) Preserving the centuries-old non-Pueblo irrigation in 
the Basin; and (4) Providing water for current and future uses by all 
of the Basin's residents.
The Pojoaque Basin Regional Water System
    The centerpiece of the Settlement Agreement is the proposed 
construction of a water system for the Basin which will have the 
capacity to deliver 2,500 acre feet per year of water from the Rio 
Grande to the Four Pueblos. It will also be able to deliver 1,500 acre 
feet per year to the County Water Utility to serve future water users 
in the Basin as well as present domestic well owners who choose to 
connect to the system. The source of the water has been identified with 
the assistance of the State of New Mexico, the County, the U.S. 
Department of Interior, and the settling parties. The water system's 
provision of water to non-Pueblo water users is important to the 
Pueblos because it will reduce stress on the groundwater resources of 
the Basin. Without the construction of the water systems, the 
litigation cannot be settled.
    The total project cost of the settlement is nearly $305 million 
which would be used to construct the Pueblo and County combined water 
system; county connections; the Pueblo Water Acquisition Fund; the 
Pueblo Conservation Fund; City Water Delivery Offsets; the Pueblo 
O.M.&R. Fund; the County Water Utility O.M.&R.; County Water Rights 
Acquisition; and Inbasin Water Rights Transferred to County Water 
Utility. Simply put, without the construction of the water systems, the 
litigation cannot be settled.
Project Costs and the Reclamation Water Settlements Fund
    The total project cost of the settlement is about $305 million of 
which about $175 million would be the federal contribution, with the 
State of New Mexico, Santa Fe County and the City of Santa Fe prepared 
to contribute in excess of $130 million to the proposed settlement.
    As this Committee knows, since 1990, the Executive Branch has 
gauged all Indian land and water settlements against the ``Criteria and 
Procedures'' that were issued in that year. While no proposed Indian 
water settlement is perfect in terms of meeting the Criteria and 
Procedures, the Aamodt settlement is as close to a neat fit that is 
likely to come before the Congress.
    For many years, Senators from western states have grappled with the 
problem of financing Indian land and particularly water settlements. On 
April 19, 2007, Senator Bingaman introduced S. 1171, the Northwestern 
New Mexico Rural Water Projects Act which included language to create a 
``Reclamation Water Settlements Fund'' (``Reclamation Fund'') in the 
U.S. Treasury to fund the water settlements of the Navajo Nation and 
other Indian tribes.
    The Reclamation Fund would make available some $500 million satisfy 
the Navajo settlement and an additional $250 million to satisfy the 
Aamodt and Taos settlements. The Reclamation Fund would also fund other 
Indian water settlements in Montana and Arizona.
    Legislation to establish the Reclamation Fund was not enacted in 
the 110th Congress and, accordingly, on January 6, 2009, Senator 
Bingaman reintroduced a bill to authorize more than 100 separate pieces 
of legislation. This bill, the ``Omnibus Public Land Management Act'' 
(S.22) includes the Northwestern New Mexico Rural Water Projects Act, 
the Duck Valley Paiute Water Settlement Act, and others. The Senate 
passed the measure on January 15, 2009 and it is under consideration in 
the House.
Conclusion
    Mr. Chairman, the time is right for the swift enactment of 
legislation to ratify the Aamodt Settlement Agreement and we are 
encouraged that the negotiation and settlement of Indian water 
settlements will be a priority for Secretary Salazar and the Obama 
Administration. This concludes my statement and I would be happy to 
answer any questions you might have at this time.
                                 ______
                                 
 Prepared Statement of Tsosie Lewis, CEO, Navajo Agricultural Products 
                                Industry
Introduction
    Good morning Chairman Dorgan, Vice Chairman Barrasso, and 
distinguished members of the Committee on Indian Affairs. My name is 
Tsosie Lewis and I am the Chief Executive Officer of the Navajo 
Agricultural Products Industry (NAPI), an economic enterprise wholly-
owned by the Navajo Nation located near Farmington, NM.
    I am very pleased to submit this prepared statement for the 
Committee's Oversight Hearing to receive the views of Interior 
Secretary Ken Salazar on matters related to Indian affairs and 
policies.
    I would first like to congratulate Secretary Salazar on his recent 
confirmation and pledge to him and the department NAPI's desire to work 
collaboratively on matters of mutual concern. Secretary Salazar's 
family settled in New Mexico in the 17th century and for five 
generations has ranched and farmed the land in the San Luis Valley in 
Colorado.
NAPI Management and Operations
    Secretary Salazar's long and distinguished public service has 
demonstrated his commitment to the wise use of our nation's natural 
resources, land, and water. It is with this in mind that I note NAPI's 
guiding principle: Caring for our land. Caring for our future. 
Currently operating a farm of approximately 70,000 acres, NAPI is one 
of the largest employers of Navajo Nation members on the Navajo Nation 
and contributes some $100 million annually into the economy of the Four 
Corners Area.
    In its operations, NAPI has stressed the use of the state-of-the-
art technology and environmentally friendly practices. The major crops 
grown and sold by NAPI include alfalfa; corn; onions; wheat and small 
grains; potatoes; pinto beans; and specialty crops. NAPI is governed by 
a 5-member Board of Directors and for a farm of its size has a 
modestly-sized management of 7 persons.

    NAPI operates 4 departments as follows:

    1. Operations & Maintenance (O&M) Department. NAPI performs the 
required Operations and Maintenance (O&M) through a Public Law 93-638 
contract with the Bureau of Indian Affairs (BIA). The O&M Department is 
responsible for water delivery to NAPI farmlands using the Navajo 
Indian Irrigation Project (NIIP) storage, carriage, and distribution 
facilities. The O&M Department operates and maintains all aspects of 
the NIIP facilities that have been transferred to BIA.
    2. On-Farm Development (OFD) Department. NAPI's On-Farm Development 
Department (OFD) is also funded through a Public Law 93-638 contract 
with the BIA and is dedicated exclusively for the development of new 
irrigation systems. This funding allows for assessment and planning and 
proceeds to constructing self-propelled irrigation center pivot 
systems, underground water lines, electrical systems for water control 
and radio telemetry systems.
    3. Agricultural Testing and Research Laboratory (ATRL) Department. 
NAPI's Agricultural Testing and Research Laboratory Department (ATRL) 
was established to meet the needs of the NIIP and to provide analytical 
services and technical assistance to NAPI personnel.
    4. Navajo Agricultural Marketing Industry (NAMI). Rounding out the 
major departments NAPI operates, NAMI's responsibility is to enhance 
the market share of NAPI products and to look for opportunities to 
introduce the ``Navajo Pride'' line of products into new markets both 
domestically and overseas. These products include alfalfa, pinto beans, 
potatoes, corn, grains, and specialty crops.
    Through years of hard work and prudent use of our scarce resources, 
NAPI has become a profitable, high-tech agribusiness that is 
competitive in the American market and in the international 
marketplace. NAPI has participated with the U.S. Department of 
Agriculture in international trade shows to market our goods. NAPI also 
has entered a rare bi-lateral agricultural purchasing agreement with 
Cuba under which we ship commodities to the island in exchange for hard 
currency.
    In December 2008, the New Mexico Department of Agriculture 
acknowledged and certified NAPI's agricultural practices and in 
particular those related to food safety in the field, in growing the 
crops, and in harvesting. The State's certification also brings with it 
a coveted spot on the preferred vendor list for consumers in New Mexico 
and elsewhere. Representative customers of ``Navajo Pride'' products 
include Del Monte, Wal-Mart, Basha's, Frito Lay, American Italian Pasta 
Company, and many other.
Opportunities for Economic Growth and Jobs
    NAPI currently operates 70,000 acres under cultivation--many with 
trademarked Navajo Pride brand agricultural products. In addition, NAPI 
offers beneficial leasing opportunities for other agricultural 
producers and currently has lease contracts with Navajo Mesa Farms, 
Pumpkin Patch Fundraisers, and others. There are also significant 
processing plant opportunities including an industrial park, which is 
divided into five to ten acre parcels. NAPI now operates a popcorn 
facility and a bean plant that packages and ships dry, edible pinto 
beans. NAPI also operates a potato cleaning facility that operates 
nearly around the clock and ships NAPI-grown potatoes across the 
country.
    To bring value-added to the potato operation, NAPI is laying the 
groundwork for the construction and operation of a potato processor and 
french-fry plant to serve restaurants, retailers, and wholesalers in 
the region and across the country. Other potential opportunities from 
these business sites would include russet and chipper potatoes, carrot 
products and cold-packing vegetables and lettuce. NAPI lands are also 
leased to sheep and cattle owners for both winter grazing and summer 
pasture and we believe these activities can be expanded significantly 
in the years to come.
Irrigation Infrastructure Rehabilitation
    As with any commercial enterprise, NAPI faces numerous challenges 
in its desire to increase revenues and create jobs in the Farmington 
area. High energy costs, lagging consumer demand, and lack of credit 
are all contributing to slower growth and profitability for NAPI. The 
most immediate challenge, however, is one that can be overcome with the 
stroke of a pen by Secretary Salazar. Some history is in order before 
discussing this issue.
    Congress first authorized construction of the Navajo Indian 
Irrigation Project (NIIP) in 1962 with 1976 seen as the date of 
completion of the project. The NIIP legislation implemented an 
agreement negotiated among the Navajo Nation, the State of New Mexico, 
and the United States under which the United States committed to 
construct and maintain an 110,630-acre farm on roughly the same time 
frame as the San Juan-Chama Diversion Project (``Diversion Project''). 
The Diversion Project was completed on-schedule and now serves the 
population of the Rio Grande Valley yet the NIIP languishes for lack of 
Federal funding and the commitment of the Interior Department to 
fulfill the obligations it assumed decades earlier.
    NAPI is the instrumentality charged with operating a commercial 
farm on NIIP lands. Forty-seven years after enactment, the NIIP is only 
70 percent complete. For the past 8 years, Federal funding for both 
construction and maintenance of the NIIP has not been forthcoming. This 
lack of Federal funding risks the integrity of NAPI's irrigation 
infrastructure as well as the viability of NAPI's operations for years 
into the future.
    Five months ago, NAPI and the Navajo Nation reached consensus that, 
as a one-time matter, $7.3 million in Federal construction funding 
already appropriated for NIIP in Fiscal Year 2008 should be re-
programmed to enable NAPI to rehabilitate the center pivots that are so 
crucial to its operations.
    In addition, the Bureau of Indian Affairs--Navajo Regional Office 
agrees with the urgency of the irrigation infrastructure situation as 
well as the proposed re-programming of funding to rectify this 
situation. I can assure the Committee that the Appropriations 
Committees in both the House and Senate as well as the New Mexico 
delegation have been apprised of the re-programming and have indicated 
their willingness to support it.
Conclusion
    I thank the Chairman for the opportunity to discuss these matters 
and would be happy to answer any question you might have at this time.
                                 ______
                                 
  Response to Written Questions Submitted by Hon. Byron L. Dorgan to 
                            Hon. Ken Salazar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

  Response to Written Questions Submitted by Hon. Tom Coburn, M.D. to 
                            Hon. Ken Salazar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

   Response to Written Questions Submitted by Hon. Maria Cantwell to 
                            Hon. Ken Salazar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

    Response to Written Questions Submitted by Hon. John McCain to 
                            Hon. Ken Salazar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

     Response to Written Questions Submitted by Hon. Jon Tester to 
                            Hon. Ken Salazar

[GRAPHIC(S) NOT AVAILABLE IN TIFF FORMAT]

                                  <all>

</pre></body></html>
